      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                             Washington, D.C. 20201




November 3, 2010

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at ACTION, Inc. of Delaware and Grant
              Counties (A-05-10-00066)


The attached final report provides the results of our limited scope review at ACTION, Inc. of
Delaware and Grant Counties. In accordance with the Recovery Act, the Office of Inspector
General (OIG) will provide oversight of covered funds to prevent fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
6 months. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-10-00066 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
 AT ACTION, INC. OF DELAWARE
     AND GRANT COUNTIES




                        Daniel R. Levinson
                         Inspector General

                         November 2010
                         A-05-10-00066
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAAs) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

The Indiana Housing and Community Development Authority (State agency) acts as the lead
agency for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant application, and monitoring the
CAAs for compliance with program regulations. The State agency was awarded an additional
$14,558,833 in Recovery Act funds for the State of Indiana’s CSBG program.

ACTION, Inc. of Delaware and Grant Counties (the Grantee), a private, nonprofit organization,
provides services to low income, elderly, and disabled citizens throughout Delaware and Grant
counties in Indiana. During fiscal year (FY) 2009, the State agency awarded the Grantee
$502,184 in CSBG grant funds and a Recovery Act grant totaling $608,236. For FY 2009, the
Grantee received total Federal grant awards of $8,528,996.

OBJECTIVE

Our objective was to assess the Grantee’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, the Grantee has shown signs of financial distress. If it makes progress
in implementing certain financial and programmatic improvement recommendations, it will have
the capacity to manage and account for Federal funds and to operate its CSBG program in
accordance with Federal regulations. During our review, we noted weaknesses related to:
financial viability, safeguarding of Federal funds, the whistleblower process, and inventory of
property.



                                                i
RECOMMENDATION

In determining whether the Grantee is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing the Grantee’s ability to operate a CSBG program in accordance with Federal
regulations and work with the State to address noted weaknesses.

GRANTEE COMMENTS

In written comments on our draft report, the grantee stated that it is working to alleviate
identified weaknesses in financial viability, the whistleblower process, and inventory of
property.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Indiana Housing and Community Development Authority ...........................1
              ACTION, Inc. of Delaware and Grant Counties............................................1
              Requirements for Federal Grantees ………………………………………...1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL VIABILITY .........................................................................................3

          ADEQUATE SAFEGUARDING OF FEDERAL FUNDS………………………..4

          WHISTLEBLOWER POLICIES AND PROCEDURES…………………………. 4

          INVENTORY OF PROPERTY…………………………………………………… 4

          STATE AGENCY REVIEW OF ACTION, INC ......................................................4

          RECOMMENDATION…………………………………………………………….5

          GRANTEE COMMENTS…………………………………………………………..5

APPENDIX

          GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAAs) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Indiana Housing and Community Development Authority

The Indiana Housing and Community Development Authority (the State agency) acts as the lead
agency for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications, and monitoring the
CAAs for compliance with program regulations. The State agency was awarded with an
additional $14,558,833 in Recovery Act funds for the State of Indiana’s CSBG program.

ACTION, Inc. of Delaware and Grant Counties

ACTION, Inc. of Delaware and Grant Counties (the Grantee), a private, nonprofit organization,
provides services to low income, elderly, and disabled citizens throughout Delaware and Grant
counties, in Indiana. During fiscal year (FY) 2009, the State agency awarded the Grantee
$502,184 in CSBG grant funds and a Recovery Act grant totaling $608,236. For FY 2009, the
Grantee received total Federal grant awards of $8,528,996.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the

                                                1
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. The CSBG Act establishes the CSBG program and sets the requirements and
guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Grantee’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of the Grantee’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of its internal control structure. Rather, we reviewed only the internal controls that
pertained directly to our objective. Our review period was January 1, 2006, through June 9,
2010.

We performed our fieldwork at the Grantee’s administrative office in Muncie, Indiana, during
May 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that the Grantee is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed the Grantee’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed the findings related to the most recent State review;

   •    reviewed the Grantee’s policies and procedures related to the CSBG program;

   •    reviewed the Grantee’s by-laws, minutes from the Board of Director meetings, and
        organizational chart;

   •    performed audit steps to assess the adequacy of the Grantee’s current financial systems;
        and

   •    reviewed the Grantee’s audited financial statements and supporting documentation for the
        period of January 1, 2006, through December 31, 2008.

                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, the Grantee has shown signs of financial distress. If it implements
certain financial and programmatic improvement recommendations, the Grantee will have the
capacity to manage and account for Federal funds and to operate its CSBG program in
accordance with Federal regulations. During our review, we noted weaknesses related to:
financial viability, safeguarding of Federal funds, the whistleblower process, and inventory of
property.

FINANCIAL VIABILITY

Pursuant to 45 CFR § 74.14, grantees should be financially viable. Specifically, this regulation
states that the awarding agency may impose additional requirements as needed if an applicant or
recipient has a history of poor performance or is not financially stable.

To determine whether the Grantee was financially viable, we performed liquidity and stability
analyses of its finances for FYs 2006 through 2008. Our analysis of the Grantee’s fiscal status
provided negative indicators of financial viability.

The current ratio which gives an indication of the Grantee’s ability to meet short-term debt
obligations continued to weaken during FYs 2006 through 2008. Current ratios greater than 1
indicate a positive financial position. The current ratio for each of the FY’s 2006, 2007, and
2008 was .90, .84, and .88, respectively. Net working capital (current assets-current liabilities)
was negative for all 3 years with balances of ($100,887), ($111,864), and ($200,990),
respectively. Also, expenditures have exceeded revenues for 2 of 3 FYs with deficits of ($7,587)
in 2006, and ($111,107) in 2008.

The Grantee had a cash balance of $394,008 in 2006, but ended the FYs 2007 and 2008 with a
bank overdraft of ($25,254) and ($80,776), respectively. Current liabilities decreased by 39
percent from FY 2006 to 2007, but then increased by 59 percent from FY 2007 to 2008. The
combination of a negative cash balance and a sudden increase in current liabilities indicates a
weakening financial position.

We also performed a debt ratio analysis to determine the overall financial risk of the
organization. The Grantee’s debt ratios for each of the FY’s 2006, 2007, and 2008 were 1.11,
1.06, and 1.10, respectively. A debt ratio greater than 1 indicates that a company has more debt
than assets.




                                                3
ADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
policy states that deposits owned by a corporation, partnership, or unincorporated association are
insured up to $250,000 at a single bank.

The Grantee’s bank account balances have not exceeded $250,000; however, with the additional
Recovery Act funding, the balances could go above the insured limit.

WHISTLEBLOWER POLICIES AND PROCEDURES

Pursuant to the American Recovery and Reinvestment Act §1553(e), any employer receiving
covered funds is required to post notice of the rights and remedies for the protection of
whistleblowers. The Grantee did not have a process established and communicated to officers,
employees, and others about the rights and remedies provided by the Recovery Act for reporting
suspected instances of wrongdoing by the company or its employees.

INVENTORY OF PROPERTY

Pursuant to 45 CFR § 74.34, recipients of HHS funds are required to take a physical inventory of
equipment acquired with Federal funds at least once every two years. Contrary to Federal
regulations, the Grantee had not taken a physical inventory of equipment since 2007.

STATE AGENCY REVIEW OF ACTION, INC.

The State agency is responsible for distributing and monitoring the use of CSBG Recovery Act
funds provided to Indiana CAAs. The State agency has documented numerous concerns about
the Grantee’s management and financial condition through its correspondence with the
organization and performance of the Triennial Comprehensive Administrative Review. The
State agency identified the following conditions:

   •   inadequate accounting system,

   •   untimely and incorrect accounting records,

   •   deteriorating financial position, and

   •   inadequate financial management personnel.

In response to quality concerns on the financial statements issued by the Grantee’s external CPA
firm, the State agency contracted with a different CPA firm to perform consulting duties on
behalf of the State. The consultants examined the Grantee’s internal controls over financial
reporting for the FY ended December 31, 2008, and noted the following concerns:



                                                4
   •   Bank reconciliations and the general ledger did not match the audited December 31, 2008
       Statement of Financial Position.

   •   The Grantee could not provide support for amounts in the December 31, 2008 Statement
       of Financial Position.

   •   A search of unrecorded liabilities could not be performed because the Grantee did not
       have a listing of accounts payable sorted by vendor.

Consistent with the problems noted above, the Grantee was unable to provide any financial
statements for the FYs 2009 and 2010.

Due to these and other identified problems, the State agency placed the Grantee on a Quality
Improvement Plan (QIP). The QIP required the Grantee to list the measures it would take to
correct the program and financial related deficiencies identified by the State agency during the
Triennial Comprehensive Administrative Review. The Grantee is also required to make
improvements to its financial and accounting systems. These improvements should include the
formation of an agency-wide budget, updates to the fiscal policy manual, as well as the creation
of timely and accurate financial statements. The QIP is in effect July 6, 2010 through
December 6, 2010. During that period, the Grantee will be closely monitored by the State
agency. As part of this monitoring, the Grantee will be required to submit monthly financial
statements to the State agency, and must demonstrate that accurate bank reconciliations are
completed on a monthly basis. The State agency officials will also visit the Grantee in October
2010 to perform an interim review to measure the progress of the required QIP improvements.

RECOMMENDATION

In determining whether the Grantee is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing the Grantee’s ability to operate a CSBG program in accordance with Federal
regulations and work with the State to address noted weaknesses.

GRANTEE COMMENTS

In written comments on our draft report, the grantee stated that it is working to alleviate
identified weaknesses in financial viability, the whistleblower process, and inventory of property.




                                                5
APPENDIX
                                                                                                       Page 1 of 2
                                   APPENDIX: GRANTEE COMMENTS


                                                      ACTION, Inc. of Delaware & Grant Counties
                                                       Governing Board Officers:
                                                       Dianna Bennington, President
                                                       Tania Said, Vice President
                                                       Tracy Curtis, Treasurer
                       of Delaware & Grant Coultles    Melanie lanich, Secretary




September 27,2010

RE: Response to Report Number: A-Q5-1o-00066

Mr. James C. Cox
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region V
233 North Michigan Avenue
Suite 1360
Chicago, IL 60601

Dear Mr. Cox:

This letter is in response to your letter dated September 17th, 2010, concerning report number: A-05-1D-00066.
Below, please find a comment to each finding and recommendation for said report, induding a statement of
concurrence or nonconcurrence with each recommendation.

RESPONSE TO FINDINGS:

1) Financial Viability:

   Grantee concurs there are concerns with its financial viability. Grantee and Its board of directors have been
implementing financial and programmatic improvements to: 1) determine an accurate fiscal status; 2) ensure
proper program management; 3) ensure adequate safeguarding of all funding sources; and 4) strengthen overall
financial condition.

   Grantee is preparing for an upcoming audit by Katz, Sapper & Miller, certified public accounts. Audit results will
be used by AmON fiscal management and its board of directors in further developing and implementing financial
and programmatic Improvements.

2) Adequate Safeguarding of federal Funds:

    Grantee does not concur that this is an accurate finding. Grantee does deposit and maintain all funds in insured
accounts, and not more than $250,000 at any single bank. Grantee will continue to monitor account balances to
insure that all funds remain FDIC insured.

3) Whist!eblower Polldes and Procedures:

    Although the current version of the Grantee's employee handbook does refer to a version of the whistleblower
policy, Grantee does concur that a policy in compliance with the Recovery Act does not exist. Grantee has updated
its employee handbook and has drafted a formal whistleblower policy which have been presented to its board
of directors for review; it is anticipated that there will be board approval for both on or about October 2010.



                              400 W. Airpark Drive                  Phone: (765) 289 2313 

                                   P.O. Box 268                  Fax: (765) 2891192 

                                                  MunCie, IN 47308-0268 

                                                  www.ACTJONlndiana.net 

                                                                                                             Page 2 of 2




4) Inventory of Property:

    Grantee does concur that it is in violation of its requirement to take physical inventory of equipment acquired by
federal funds at least once every two (2) years. Grantee has begun completIon of a current Inventory and
antiCipates completion of said Inventory on or about October 2010.

5) State Agency Review of ACIlON. Inc.:

     Grantee mostly co'ncurs with this finding. Grantee concurs that the State agency has documented numerous
concerns about its management and financial condition, which resulted in Grantee being placed on a Quality
Improvement Plan (QIP). Although Grantee does concur that internal financial controls are weakr Grantee takes
issue with the finding that it chose to not incorporate the adjusting journal entries in the trial balance as noted by
its external CPA firm. Grantee was provided with nine (9) pages of adjusting journal entries by its then external
CPA firm. ACTION fiscal staff immediately noted that the top of the first of these nine (9) pages did"not balance.
The external CPA firm was questioned about this and responded by directing ACTION fjs~1 ~ff to ignore this
                                                                                                             0
error; further, ACl10N was never provided with a corrected adjusted journal entry report. 1                      ""




    Grantee has been working on completion of its QIP, but acknowledges it Is behind on meeting plan
requirements. Grantee's board of directors has made structural changes to leadership and is working with Grantee
fiscal staff on implementing financial improvements. Grantee is preparing for an upcoming external audit that will
likely include a forensic review to help determine the origin of its current large deficit. Said audit will be -conducted
by a new CPA firm hired by Grantee.


Grantee would like to conclude its response to the findings of report number: A-DS-IO-OO066 by stating that it and
its board of directors are committed to correcting fiscal and program defidencies. Grantee acknowledges it has a
lot of work to do, but is confident that it will make improvements that will ensure proper fiscal and program
management.

Please advise if you have any questions or require additional information concerning this matter. Thank you.

Kif'!d regards,
nW.. ,v1VtA f:(V1 V\ Iv 15WVl
Dianna Bennington, Esquire
Chair, ACTION Board of Directors




1Office of Inspector General Note-The last three sentences in this paragraph are not applicable
because the finding or issue referred to by the auditee is not included in this report.
